Rewards Platinum Credit Card
Information on this disclosure was accurate as of April 30, 2020. This card will be issued and administered by TCM Bank, N.A. Before you
submit your application, please read through these Important Disclosures, which contain additional information about rates, fees, and
other costs, as applicable. The variable rates, the fees, and the terms are subject to change. To find out if any rates, fees or terms have
changed, please write to: TCM Bank, N.A., P.O. Box 31537, Tampa, FL 33631. Each applicant must be at least 18 years of age.

Interest Rates and Interest Charges
Annual Percentage
Introductory APR applies for twelve billing cycles from date of account opening.
Rate (APR) for
Purchases
After that, your APR will be
, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.*

0%

APR for Balance
Transfers
APR for Cash
Advances
How to Avoid
Paying Interest on
Purchases
Minimum Interest
Charge
For Credit Card
Tips from the
Consumer
Financial
Protection Bureau
Fees
Annual Fee
Transaction Fees

9.99% to 19.99%

0% Introductory APR applies for twelve billing cycles from date of account opening.
After that, your APR will be 9.99% to 19.99%, based on your creditworthiness. This APR will
vary with the market based on the Prime Rate.*
21.99%
This APR will vary with the market based on the Prime Rate.*
Your due date is at least 23 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month.
If you are charged interest, the charge will be no less than $1.00.
To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

None

•

Balance
Transfer

Either $5 or 3% of each balance transferred, whichever is greater.

•

Cash
Advance

Either $5 or 3% of each cash advance, whichever is greater.

Foreign
Transaction
Penalty Fees
•

1% of the U.S. dollar amount of each transaction made in a foreign currency, in U.S. dollars
outside the U.S., or (whether in a foreign currency or in U.S. dollars) with a foreign merchant.

•

Late
Payment

Up to $40.

•

Over-the
Credit Limit

None

•

Returned
Payment

Up to $40.

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new transactions).”
Loss of the Introductory APR: If you make a late payment, we may end your Introductory APR for Purchases and Balance
Transfers and apply the Purchase and Balance Transfer APR which would apply when the Introductory APR expires.

Loss of the Employee Rate: If you are eligible for the Employee Rate Program, you will receive an 9.99% variable APR
on purchases and balance transfers. In the event your current employment ends, we will apply the APR then in effect
which would apply when the Introductory APR expires, based on your creditworthiness.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights will be provided in your Cardholder
Agreement.
*We add a margin to the Prime Rate to determine variable APRs. We use the highest Prime Rate listed in The Wall Street Journal on
the last business day of the calendar month prior to your statement closing date (“Last Business Day”) and apply it beginning with the
first billing period following the Last Business Day. APRs shown here are based on a 3.25% Prime Rate. For each billing period, the
APR is determined by adding a margin to the Prime Rate. The margin for the APR for Purchases and Balance Transfers is 6.74% to
16.74%, based on your creditworthiness and for Cash Advances is 18.74%.
NOTICE: A consumer credit report may be requested in connection with this application and subsequent consumer reports may be
requested or utilized in connection with an update, renewal or extension of the credit for which application was made. Upon request, you
will be informed whether or not a consumer report was requested, and if such report was requested, informed of the name and address
of the consumer reporting agency that furnished the report. You agree that we will consider this an Application for a Visa® or Mastercard®
account. You agree that we reserve the right, based upon our evaluation of information furnished by you or others, not to open an account.
Important Information About Procedures for Opening a New Account
To help the government fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to
obtain, verify, and record information that identifies each person who opens an account.
What this means for you: When you open an account, we will ask for your name, address, date of birth, and other information that will
allow us to identify you. We may also ask to see your driver's license or other identifying documents.
State Laws Require the Following Notices: California Residents: A married applicant may apply for a separate account. After credit
approval, each applicant shall have the right to use this account to the extent of any limit set by the creditor and each applicant may be
liable for all amounts extended under this account to any joint applicant. Delaware Residents: Service charges not in excess of those
permitted by law will be charged on the outstanding balances from month to month. New York Residents: New York residents may contact
the New York state department of financial services by telephone or visit its website for free information on comparative credit card rates,
fees and grace periods. New York state department of financial services telephone: (800) 342-3736 and website: www.dfs.ny.gov. Ohio
Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all credit worthy customers, and
that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio civil rights commission
administers compliance with this law. Married Wisconsin Residents: Your signature confirms that this credit obligation is being incurred
in the interest of your marriage or family. No provision of any marital property agreement, unilateral statement under Section 766.59, or
court decree under Section 766.70, adversely affects the creditor’s interest unless, prior to the time the credit is granted, the creditor is
furnished a copy of the agreement, statement or decree or has actual knowledge of the adverse provision when the obligation to the
creditor is incurred. If the credit card for which you are applying is granted, you will notify TCM Bank if you have a spouse who needs to
review notification that credit has been extended to you.
Applicable Law: The above rates and fees are governed, as are your Cardholder Agreement and account, by the applicable laws and
regulations of the United States of America and to the extent not preempted by federal law, the laws and regulations of the State of
Florida.
Balance Transfer Disclosures: You agree to allow approximately 30 days for us to process your application and, if approved, transfer the
balance(s) to your TCM account. Please continue to make at least minimum payments on your other credit cards until they notify you
that the balances have been transferred. If the amounts you request to be transferred do not satisfy the outstanding balance(s) on the
designated accounts, you will continue to be responsible for those balances. The total amount of your balance transfer request cannot
exceed the amount of your credit line. You may not transfer balances from other accounts issued by TCM Bank. Transfer requests to cash
or to yourself cannot be processed. The payment and transfer of balances are contingent upon approval by the bank and receipt of
complete, legible balance transfer requests.
Rewards: In order to access reward points, your account must be open and in good standing.

Cash Rewards Platinum Credit Card
Information on this disclosure was accurate as of April 30, 2020. This card will be issued and administered by TCM Bank, N.A. Before you
submit your application, please read through these Important Disclosures, which contain additional information about rates, fees, and
other costs, as applicable. The variable rates, the fees, and the terms are subject to change. To find out if any rates, fees or terms have
changed, please write to: TCM Bank, N.A., P.O. Box 31537, Tampa, FL 33631. Each applicant must be at least 18 years of age.

Interest Rates and Interest Charges
Annual Percentage
Introductory APR applies for twelve billing cycles from date of account opening.
Rate (APR) for
Purchases
After that, your APR will be
, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.*

0%

APR for Balance
Transfers
APR for Cash
Advances
How to Avoid
Paying Interest on
Purchases
Minimum Interest
Charge
For Credit Card
Tips from the
Consumer
Financial
Protection Bureau
Fees
Annual Fee
Transaction Fees

12.99% to 22.99%

0% Introductory APR applies for twelve billing cycles from date of account opening.
After that, your APR will be 12.99% to 22.99%, based on your creditworthiness. This APR
will vary with the market based on the Prime Rate.*
21.99% to 24.99%
This APR will vary with the market based on the Prime Rate.*
Your due date is at least 23 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month.
If you are charged interest, the charge will be no less than $1.00.
To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

None

•

Balance
Transfer

Either $5 or 3% of each balance transferred, whichever is greater.

•

Cash
Advance

Either $5 or 3% of each cash advance, whichever is greater.

Foreign
Transaction
Penalty Fees
•

1% of the U.S. dollar amount of each transaction made in a foreign currency, in U.S. dollars
outside the U.S., or (whether in a foreign currency or in U.S. dollars) with a foreign merchant.

•

Late
Payment

Up to $40.

•

Over-the
Credit Limit

None

•

Returned
Payment

Up to $40.

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new transactions).”
Loss of the Introductory APR: If you make a late payment, we may end your Introductory APR for Purchases and Balance
Transfers and apply the Purchase and Balance Transfer APR which would apply when the Introductory APR expires.

Loss of the Employee Rate: If you are eligible for the Employee Rate Program, you will receive an 12.99% variable APR
on purchases and balance transfers. In the event your current employment ends, we will apply the APR then in effect
which would apply when the Introductory APR expires, based on your creditworthiness.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights will be provided in your Cardholder
Agreement.
*We add a margin to the Prime Rate to determine variable APRs. We use the highest Prime Rate listed in The Wall Street Journal on the
last business day of the calendar month prior to your statement closing date (“Last Business Day”) and apply it beginning with the first
billing period following the Last Business Day. APRs shown here are based on a 3.25% Prime Rate. For each billing period, the APR is
determined by adding a margin to the Prime Rate. The margin for the APR for Purchases and Balance Transfers is 9.74% to 19.74%,
based on your creditworthiness and for Cash Advances is 18.74% to 21.74%.
NOTICE: A consumer credit report may be requested in connection with this application and subsequent consumer reports may be
requested or utilized in connection with an update, renewal or extension of the credit for which application was made. Upon request, you
will be informed whether or not a consumer report was requested, and if such report was requested, informed of the name and address
of the consumer reporting agency that furnished the report. You agree that we will consider this an Application for a Visa® or Mastercard®
account. You agree that we reserve the right, based upon our evaluation of information furnished by you or others, not to open an account.
Important Information About Procedures for Opening a New Account
To help the government fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to
obtain, verify, and record information that identifies each person who opens an account.
What this means for you: When you open an account, we will ask for your name, address, date of birth, and other information that will
allow us to identify you. We may also ask to see your driver's license or other identifying documents.
State Laws Require the Following Notices: California Residents: A married applicant may apply for a separate account. After credit
approval, each applicant shall have the right to use this account to the extent of any limit set by the creditor and each applicant may be
liable for all amounts extended under this account to any joint applicant. Delaware Residents: Service charges not in excess of those
permitted by law will be charged on the outstanding balances from month to month. New York Residents: New York residents may contact
the New York state department of financial services by telephone or visit its website for free information on comparative credit card rates,
fees and grace periods. New York state department of financial services telephone: (800) 342-3736 and website: www.dfs.ny.gov. Ohio
Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all credit worthy customers, and
that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio civil rights commission
administers compliance with this law. Married Wisconsin Residents: Your signature confirms that this credit obligation is being incurred
in the interest of your marriage or family. No provision of any marital property agreement, unilateral statement under Section 766.59, or
court decree under Section 766.70, adversely affects the creditor’s interest unless, prior to the time the credit is granted, the creditor is
furnished a copy of the agreement, statement or decree or has actual knowledge of the adverse provision when the obligation to the
creditor is incurred. If the credit card for which you are applying is granted, you will notify TCM Bank if you have a spouse who needs to
review notification that credit has been extended to you.
Applicable Law: The above rates and fees are governed, as are your Cardholder Agreement and account, by the applicable laws and
regulations of the United States of America and to the extent not preempted by federal law, the laws and regulations of the State of
Florida.
Balance Transfer Disclosures: You agree to allow approximately 30 days for us to process your application and, if approved, transfer the
balance(s) to your TCM account. Please continue to make at least minimum payments on your other credit cards until they notify you
that the balances have been transferred. If the amounts you request to be transferred do not satisfy the outstanding balance(s) on the
designated accounts, you will continue to be responsible for those balances. The total amount of your balance transfer request cannot
exceed the amount of your credit line. You may not transfer balances from other accounts issued by TCM Bank. Transfer requests to cash
or to yourself cannot be processed. The payment and transfer of balances are contingent upon approval by the bank and receipt of
complete, legible balance transfer requests.
Cash Rewards: In order to access cash rewards, your account must be open and in good standing.

Platinum Edition Credit Card
Information on this disclosure was accurate as of April 30, 2020. This card will be issued and administered by TCM Bank, N.A. Before you
submit your application, please read through these Important Disclosures, which contain additional information about rates, fees, and
other costs, as applicable. The variable rates, the fees, and the terms are subject to change. To find out if any rates, fees or terms have
changed, please write to: TCM Bank, N.A., P.O. Box 31537, Tampa, FL 33631. Each applicant must be at least 18 years of age.

Interest Rates and Interest Charges
Annual Percentage
Introductory APR applies for twelve billing cycles from date of account opening.
Rate (APR) for
Purchases
After that, your APR will be
, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.*

0%

APR for Balance
Transfers
APR for Cash
Advances
How to Avoid
Paying Interest on
Purchases
Minimum Interest
Charge
For Credit Card
Tips from the
Consumer
Financial
Protection Bureau
Fees
Annual Fee
Transaction Fees

8.99% to 18.99%

0% Introductory APR applies for twelve billing cycles from date of account opening.
After that, your APR will be 8.99% to 18.99%, based on your creditworthiness. This APR will
vary with the market based on the Prime Rate.*
21.99%
This APR will vary with the market based on the Prime Rate.*
Your due date is at least 23 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month.
If you are charged interest, the charge will be no less than $1.00.
To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

None

•

Balance
Transfer

Either $5 or 3% of each balance transferred, whichever is greater.

•

Cash
Advance

Either $5 or 3% of each cash advance, whichever is greater.

Foreign
Transaction
Penalty Fees
•

1% of the U.S. dollar amount of each transaction made in a foreign currency, in U.S. dollars
outside the U.S., or (whether in a foreign currency or in U.S. dollars) with a foreign merchant.

•

Late
Payment

Up to $40.

•

Over-the
Credit Limit

None

•

Returned
Payment

Up to $40.

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new transactions).”
Loss of the Introductory APR: If you make a late payment, we may end your Introductory APR for Purchases and Balance
Transfers and apply the Purchase and Balance Transfer APR which would apply when the Introductory APR expires.

Loss of the Employee Rate: If you are eligible for the Employee Rate Program, you will receive a 8.99% variable APR
on purchases and balance transfers. In the event your current employment ends, we will apply the APR then in effect
which would apply when the Introductory APR expires, based on your creditworthiness.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights will be provided in your Cardholder
Agreement.
*We add a margin to the Prime Rate to determine variable APRs. We use the highest Prime Rate listed in The Wall Street Journal on
the last business day of the calendar month prior to your statement closing date (“Last Business Day”) and apply it beginning with the
first billing period following the Last Business Day. APRs shown here are based on a 3.25% Prime Rate. For each billing period, the
APR is determined by adding a margin to the Prime Rate. The margin for the APR for Purchases and Balance Transfers is 5.74% to
15.74%, based on your creditworthiness and for Cash Advances is 18.74%.
NOTICE: A consumer credit report may be requested in connection with this application and subsequent consumer reports may be
requested or utilized in connection with an update, renewal or extension of the credit for which application was made. Upon request, you
will be informed whether or not a consumer report was requested, and if such report was requested, informed of the name and address
of the consumer reporting agency that furnished the report. You agree that we will consider this an Application for a Visa® or Mastercard®
account. You agree that we reserve the right, based upon our evaluation of information furnished by you or others, not to open an account.
Important Information About Procedures for Opening a New Account
To help the government fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to
obtain, verify, and record information that identifies each person who opens an account.
What this means for you: When you open an account, we will ask for your name, address, date of birth, and other information that will
allow us to identify you. We may also ask to see your driver's license or other identifying documents.
State Laws Require the Following Notices: California Residents: A married applicant may apply for a separate account. After credit
approval, each applicant shall have the right to use this account to the extent of any limit set by the creditor and each applicant may be
liable for all amounts extended under this account to any joint applicant. Delaware Residents: Service charges not in excess of those
permitted by law will be charged on the outstanding balances from month to month. New York Residents: New York residents may contact
the New York state department of financial services by telephone or visit its website for free information on comparative credit card rates,
fees and grace periods. New York state department of financial services telephone: (800) 342-3736 and website: www.dfs.ny.gov. Ohio
Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all credit worthy customers, and
that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio civil rights commission
administers compliance with this law. Married Wisconsin Residents: Your signature confirms that this credit obligation is being incurred
in the interest of your marriage or family. No provision of any marital property agreement, unilateral statement under Section 766.59, or
court decree under Section 766.70, adversely affects the creditor’s interest unless, prior to the time the credit is granted, the creditor is
furnished a copy of the agreement, statement or decree or has actual knowledge of the adverse provision when the obligation to the
creditor is incurred. If the credit card for which you are applying is granted, you will notify TCM Bank if you have a spouse who needs to
review notification that credit has been extended to you.
Applicable Law: The above rates and fees are governed, as are your Cardholder Agreement and account, by the applicable laws and
regulations of the United States of America and to the extent not preempted by federal law, the laws and regulations of the State of
Florida.
Balance Transfer Disclosures: You agree to allow approximately 30 days for us to process your application and, if approved, transfer the
balance(s) to your TCM account. Please continue to make at least minimum payments on your other credit cards until they notify you
that the balances have been transferred. If the amounts you request to be transferred do not satisfy the outstanding balance(s) on the
designated accounts, you will continue to be responsible for those balances. The total amount of your balance transfer request cannot
exceed the amount of your credit line. You may not transfer balances from other accounts issued by TCM Bank. Transfer requests to cash
or to yourself cannot be processed. The payment and transfer of balances are contingent upon approval by the bank and receipt of
complete, legible balance transfer requests.

Secured Platinum Credit Card
Information on this disclosure was accurate as of April 30, 2020. This card will be issued and administered by TCM Bank, N.A. Before you
submit your application, please read through these Important Disclosures, which contain additional information about rates, fees, and
other costs, as applicable. The variable rates, the fees, and the terms are subject to change. To find out if any rates, fees or terms have
changed, please write to: TCM Bank, N.A., P.O. Box 31537, Tampa, FL 33631. Each applicant must be at least 18 years of age.

Interest Rates and Interest Charges
Annual Percentage
.
Rate (APR) for
Purchases
This APR will vary with the market based on the Prime Rate.*

18.99%

APR for Balance
Transfers
APR for Cash
Advances
How to Avoid
Paying Interest on
Purchases
Minimum Interest
Charge
For Credit Card
Tips from the
Consumer
Financial
Protection Bureau
Fees
Annual Fee
Transaction Fees

18.99%.
This APR will vary with the market based on the Prime Rate.*
21.99%
This APR will vary with the market based on the Prime Rate.*
Your due date is at least 23 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month.
If you are charged interest, the charge will be no less than $1.00.
To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

$29

•

Balance
Transfer

Either $5 or 3% of each balance transferred, whichever is greater.

•

Cash
Advance

Either $5 or 3% of each cash advance, whichever is greater.

Foreign
Transaction
Penalty Fees
•

1% of the U.S. dollar amount of each transaction made in a foreign currency, in U.S. dollars
outside the U.S., or (whether in a foreign currency or in U.S. dollars) with a foreign merchant.

•

Late
Payment

Up to $40.

•

Over-the
Credit Limit

None

•

Returned
Payment

Up to $40.

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new transactions).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights will be provided in your Cardholder
Agreement.
*We add a margin to the Prime Rate to determine variable APRs. We use the highest Prime Rate listed in The Wall Street Journal on
the last business day of the calendar month prior to your statement closing date (“Last Business Day”) and apply it beginning with the
first billing period following the Last Business Day. APRs shown here are based on a 3.25% Prime Rate. For each billing period, the

APR is determined by adding a margin to the Prime Rate. The margin for the APR for Purchases and Balance Transfers is 15.74% and
for Cash Advances is 18.74%.
NOTICE: A consumer credit report may be requested in connection with this application and subsequent consumer reports may be
requested or utilized in connection with an update, renewal or extension of the credit for which application was made. Upon request, you
will be informed whether or not a consumer report was requested, and if such report was requested, informed of the name and address
of the consumer reporting agency that furnished the report. You agree that we will consider this an Application for a Visa® or Mastercard®
account. You agree that we reserve the right, based upon our evaluation of information furnished by you or others, not to open an account.
Important Information About Procedures for Opening a New Account
To help the government fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to
obtain, verify, and record information that identifies each person who opens an account.
What this means for you: When you open an account, we will ask for your name, address, date of birth, and other information that will
allow us to identify you. We may also ask to see your driver's license or other identifying documents.
State Laws Require the Following Notices: California Residents: A married applicant may apply for a separate account. After credit
approval, each applicant shall have the right to use this account to the extent of any limit set by the creditor and each applicant may be
liable for all amounts extended under this account to any joint applicant. Delaware Residents: Service charges not in excess of those
permitted by law will be charged on the outstanding balances from month to month. New York Residents: New York residents may contact
the New York state department of financial services by telephone or visit its website for free information on comparative credit card rates,
fees and grace periods. New York state department of financial services telephone: (800) 342-3736 and website: www.dfs.ny.gov. Ohio
Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all credit worthy customers, and
that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio civil rights commission
administers compliance with this law. Married Wisconsin Residents: Your signature confirms that this credit obligation is being incurred
in the interest of your marriage or family. No provision of any marital property agreement, unilateral statement under Section 766.59, or
court decree under Section 766.70, adversely affects the creditor’s interest unless, prior to the time the credit is granted, the creditor is
furnished a copy of the agreement, statement or decree or has actual knowledge of the adverse provision when the obligation to the
creditor is incurred. If the credit card for which you are applying is granted, you will notify TCM Bank if you have a spouse who needs to
review notification that credit has been extended to you.
Applicable Law: The above rates and fees are governed, as are your Cardholder Agreement and account, by the applicable laws and
regulations of the United States of America and to the extent not preempted by federal law, the laws and regulations of the State of
Florida.
Balance Transfer Disclosures: You agree to allow approximately 30 days for us to process your application and, if approved, transfer the
balance(s) to your TCM account. Please continue to make at least minimum payments on your other credit cards until they notify you
that the balances have been transferred. If the amounts you request to be transferred do not satisfy the outstanding balance(s) on the
designated accounts, you will continue to be responsible for those balances. The total amount of your balance transfer request cannot
exceed the amount of your credit line. You may not transfer balances from other accounts issued by TCM Bank. Transfer requests to cash
or to yourself cannot be processed. The payment and transfer of balances are contingent upon approval by the bank and receipt of
complete, legible balance transfer requests.
Deposit Account Disclosures:
Your Secured Deposit Account will serve as collateral for your credit card obligations to us.
•
This is a non-interest bearing account.
•
You must deposit between $300 and $5,000 to open this account and must maintain a balance equal to your approved credit
limit.
•
There are no fees associated with your account.
•
You may not make any withdrawals from or deposits to this account.
The full deposit agreement for your Secured Deposit Account will be provided with your card. If you disagree with the terms and conditions
of the deposit agreement you should contact us immediately after you receive it and request to close the Secured Deposit Account and
your credit card account.
You understand that the terms of your Secured Deposit Account are subject to change. IMPORTANT NOTICE REGARDING CHANGES
IN TERMS: We reserve the right to unilaterally change the terms of your Secured Deposit Account at any time for any reason. All changes
in terms will be subject to the requirements of applicable law.

Visa® Signature Travel Credit Card
Information on this disclosure was accurate as of April 30, 2020. This card will be issued and administered by TCM Bank, N.A. Before you
submit your application, please read through these Important Disclosures, which contain additional information about rates, fees, and
other costs, as applicable. The variable rates, the fees, and the terms are subject to change. To find out if any rates, fees or terms have
changed, please write to: TCM Bank, N.A., P.O. Box 31537, Tampa, FL 33631. Each applicant must be at least 18 years of age.

Interest Rates and Interest Charges
Annual Percentage
Introductory APR applies for twelve billing cycles from date of account opening.
Rate (APR) for
Purchases
After that, your APR will be
, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.*

0%

APR for Balance
Transfers
APR for Cash
Advances
How to Avoid
Paying Interest on
Purchases
Minimum Interest
Charge
For Credit Card
Tips from the
Consumer
Financial
Protection Bureau
Fees
Annual Fee
Transaction Fees

12.99% to 18.99%

0% Introductory APR applies for twelve billing cycles from date of account opening.
After that, your APR will be 12.99% to 18.99%, based on your creditworthiness. This APR
will vary with the market based on the Prime Rate.*
21.99%
This APR will vary with the market based on the Prime Rate.*
Your due date is at least 23 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month.
If you are charged interest, the charge will be no less than $1.00.
To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

None

•

Balance
Transfer

Either $5 or 3% of each balance transferred, whichever is greater.

•

Cash
Advance

Either $5 or 3% of each cash advance, whichever is greater.

Foreign
Transaction
Penalty Fees
•

1% of the U.S. dollar amount of each transaction made in a foreign currency, in U.S. dollars
outside the U.S., or (whether in a foreign currency or in U.S. dollars) with a foreign merchant.

•

Late
Payment

Up to $40.

•

Over-the
Credit Limit

None

•

Returned
Payment

Up to $40.

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new transactions).”
Loss of the Introductory APR: If you make a late payment, we may end your Introductory APR for Purchases and Balance
Transfers and apply the Purchase and Balance Transfer APR which would apply when the Introductory APR expires.

Loss of the Employee Rate: If you are eligible for the Employee Rate Program, you will receive an 12.99% variable APR
on purchases and balance transfers. In the event your current employment ends, we will apply the APR then in effect
which would apply when the Introductory APR expires, based on your creditworthiness.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights will be provided in your Cardholder
Agreement.
*We add a margin to the Prime Rate to determine variable APRs. We use the highest Prime Rate listed in The Wall Street Journal on
the last business day of the calendar month prior to your statement closing date (“Last Business Day”) and apply it beginning with the
first billing period following the Last Business Day. APRs shown here are based on a 3.25% Prime Rate. For each billing period, the
APR is determined by adding a margin to the Prime Rate. The margin for the APR for Purchases and Balance Transfers is 9.74% to
15.74%, based on your creditworthiness and for Cash Advances is 18.74%.
NOTICE: A consumer credit report may be requested in connection with this application and subsequent consumer reports may be
requested or utilized in connection with an update, renewal or extension of the credit for which application was made. Upon request, you
will be informed whether or not a consumer report was requested, and if such report was requested, informed of the name and address
of the consumer reporting agency that furnished the report. You agree that we will consider this an Application for a Visa® or Mastercard®
account. You agree that we reserve the right, based upon our evaluation of information furnished by you or others, not to open an account.
Important Information About Procedures for Opening a New Account
To help the government fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to
obtain, verify, and record information that identifies each person who opens an account.
What this means for you: When you open an account, we will ask for your name, address, date of birth, and other information that will
allow us to identify you. We may also ask to see your driver's license or other identifying documents.
State Laws Require the Following Notices: California Residents: A married applicant may apply for a separate account. After credit
approval, each applicant shall have the right to use this account to the extent of any limit set by the creditor and each applicant may be
liable for all amounts extended under this account to any joint applicant. Delaware Residents: Service charges not in excess of those
permitted by law will be charged on the outstanding balances from month to month. New York Residents: New York residents may contact
the New York state department of financial services by telephone or visit its website for free information on comparative credit card rates,
fees and grace periods. New York state department of financial services telephone: (800) 342-3736 and website: www.dfs.ny.gov. Ohio
Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all credit worthy customers, and
that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio civil rights commission
administers compliance with this law. Married Wisconsin Residents: Your signature confirms that this credit obligation is being incurred
in the interest of your marriage or family. No provision of any marital property agreement, unilateral statement under Section 766.59, or
court decree under Section 766.70, adversely affects the creditor’s interest unless, prior to the time the credit is granted, the creditor is
furnished a copy of the agreement, statement or decree or has actual knowledge of the adverse provision when the obligation to the
creditor is incurred. If the credit card for which you are applying is granted, you will notify TCM Bank if you have a spouse who needs to
review notification that credit has been extended to you.
Applicable Law: The above rates and fees are governed, as are your Cardholder Agreement and account, by the applicable laws and
regulations of the United States of America and to the extent not preempted by federal law, the laws and regulations of the State of
Florida.
Balance Transfer Disclosures: You agree to allow approximately 30 days for us to process your application and, if approved, transfer the
balance(s) to your TCM account. Please continue to make at least minimum payments on your other credit cards until they notify you
that the balances have been transferred. If the amounts you request to be transferred do not satisfy the outstanding balance(s) on the
designated accounts, you will continue to be responsible for those balances. The total amount of your balance transfer request cannot
exceed the amount of your credit line. You may not transfer balances from other accounts issued by TCM Bank. Transfer requests to cash
or to yourself cannot be processed. The payment and transfer of balances are contingent upon approval by the bank and receipt of
complete, legible balance transfer requests.
Rewards: In order to access reward points, your account must be open and in good standing.
Visa Signature® Travel Terms and Conditions
Accident Insurance. Coverage applies when the entire cost of the fare has been charged to the card. Your account must be in
good standing. Certain terms, conditions and exclusions apply. Please refer to your Program Rules for further details.
1Travel

2Auto

Rental Collision Damage Waiver. With your Visa card, you’re covered for damage due to collision or theft so you can rest easy in
your rental. Secure and charge your rental to your covered card and decline the collision damage waiver (or loss damage waiver)
offered by the rental agency. Certain terms, conditions and exclusions apply. Please refer to your Guide to Benefits for further details.
3Lost Luggage Insurance. Coverage applies to checked/carry-on luggage and the personal property contained within for up to $3,000,
when the entire common carrier passenger fare has been charged to your card.
4Visa Signature Concierge. Cardholders are responsible for the cost of any goods or services purchased by the Visa Signature
Concierge on cardholders’ behalf.

World Mastercard® Credit Card
Information on this disclosure was accurate as of April 30, 2020. This card will be issued and administered by TCM Bank, N.A. Before you
submit your application, please read through these Important Disclosures, which contain additional information about rates, fees, and
other costs, as applicable. The variable rates, the fees, and the terms are subject to change. To find out if any rates, fees or terms have
changed, please write to: TCM Bank, N.A., P.O. Box 31537, Tampa, FL 33631. Each applicant must be at least 18 years of age.

Interest Rates and Interest Charges
Annual Percentage
Introductory APR applies for twelve billing cycles from date of account opening.
Rate (APR) for
Purchases
After that, your APR will be
, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.*

0%

APR for Balance
Transfers
APR for Cash
Advances
How to Avoid
Paying Interest on
Purchases
Minimum Interest
Charge
For Credit Card
Tips from the
Consumer
Financial
Protection Bureau
Fees
Annual Fee
Transaction Fees

12.99% to 18.99%

0% Introductory APR applies for twelve billing cycles from date of account opening.
After that, your APR will be 12.99% to 18.99%, based on your creditworthiness. This APR
will vary with the market based on the Prime Rate.*
21.99%
This APR will vary with the market based on the Prime Rate.*
Your due date is at least 23 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month.
If you are charged interest, the charge will be no less than $1.00.
To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

None

•

Balance
Transfer

Either $5 or 3% of each balance transferred, whichever is greater.

•

Cash
Advance

Either $5 or 3% of each cash advance, whichever is greater.

Foreign
Transaction
Penalty Fees
•

1% of the U.S. dollar amount of each transaction made in a foreign currency, in U.S. dollars
outside the U.S., or (whether in a foreign currency or in U.S. dollars) with a foreign merchant.

•

Late
Payment

Up to $40.

•

Over-the
Credit Limit

None

•

Returned
Payment

Up to $40.

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new transactions).”
Loss of the Introductory APR: If you make a late payment, we may end your Introductory APR for Purchases and Balance
Transfers and apply the Purchase and Balance Transfer APR which would apply when the Introductory APR expires.

Loss of the Employee Rate: If you are eligible for the Employee Rate Program, you will receive a 12.99% variable APR
on purchases and balance transfers. In the event your current employment ends, we will apply the APR then in effect
which would apply when the Introductory APR expires, based on your creditworthiness.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights will be provided in your Cardholder
Agreement.
*We add a margin to the Prime Rate to determine variable APRs. We use the highest Prime Rate listed in The Wall Street Journal on
the last business day of the calendar month prior to your statement closing date (“Last Business Day”) and apply it beginning with the
first billing period following the Last Business Day. APRs shown here are based on a 3.25% Prime Rate. For each billing period, the
APR is determined by adding a margin to the Prime Rate. The margin for the APR for Purchases and Balance Transfers is 9.74% to
15.74%, based on your creditworthiness and for Cash Advances is 18.74%.
NOTICE: A consumer credit report may be requested in connection with this application and subsequent consumer reports may be
requested or utilized in connection with an update, renewal or extension of the credit for which application was made. Upon request, you
will be informed whether or not a consumer report was requested, and if such report was requested, informed of the name and address
of the consumer reporting agency that furnished the report. You agree that we will consider this an Application for a Visa® or Mastercard®
account. You agree that we reserve the right, based upon our evaluation of information furnished by you or others, not to open an account.
Important Information About Procedures for Opening a New Account
To help the government fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to
obtain, verify, and record information that identifies each person who opens an account.
What this means for you: When you open an account, we will ask for your name, address, date of birth, and other information that will
allow us to identify you. We may also ask to see your driver's license or other identifying documents.
State Laws Require the Following Notices: California Residents: A married applicant may apply for a separate account. After credit
approval, each applicant shall have the right to use this account to the extent of any limit set by the creditor and each applicant may be
liable for all amounts extended under this account to any joint applicant. Delaware Residents: Service charges not in excess of those
permitted by law will be charged on the outstanding balances from month to month. New York Residents: New York residents may contact
the New York state department of financial services by telephone or visit its website for free information on comparative credit card rates,
fees and grace periods. New York state department of financial services telephone: (800) 342-3736 and website: www.dfs.ny.gov. Ohio
Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all credit worthy customers, and
that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio civil rights commission
administers compliance with this law. Married Wisconsin Residents: Your signature confirms that this credit obligation is being incurred
in the interest of your marriage or family. No provision of any marital property agreement, unilateral statement under Section 766.59, or
court decree under Section 766.70, adversely affects the creditor’s interest unless, prior to the time the credit is granted, the creditor is
furnished a copy of the agreement, statement or decree or has actual knowledge of the adverse provision when the obligation to the
creditor is incurred. If the credit card for which you are applying is granted, you will notify TCM Bank if you have a spouse who needs to
review notification that credit has been extended to you.
Applicable Law: The above rates and fees are governed, as are your Cardholder Agreement and account, by the applicable laws and
regulations of the United States of America and to the extent not preempted by federal law, the laws and regulations of the State of
Florida.
Balance Transfer Disclosures: You agree to allow approximately 30 days for us to process your application and, if approved, transfer the
balance(s) to your TCM account. Please continue to make at least minimum payments on your other credit cards until they notify you
that the balances have been transferred. If the amounts you request to be transferred do not satisfy the outstanding balance(s) on the
designated accounts, you will continue to be responsible for those balances. The total amount of your balance transfer request cannot
exceed the amount of your credit line. You may not transfer balances from other accounts issued by TCM Bank. Transfer requests to cash
or to yourself cannot be processed. The payment and transfer of balances are contingent upon approval by the bank and receipt of
complete, legible balance transfer requests.
Rewards: In order to access reward points, your account must be open and in good standing.
World Mastercard® Travel Terms and Conditions
Accident Insurance. Coverage applies when the entire cost of the fare has been charged to the card. Your account must be in
good standing. Certain terms, conditions and exclusions apply. Please refer to your Mastercard Guide to Benefits for further details.
1Travel

World Mastercard® Credit Card
Information on this disclosure was accurate as of April 30, 2020. This card will be issued and administered by TCM Bank, N.A. Before you
submit your application, please read through these Important Disclosures, which contain additional information about rates, fees, and
other costs, as applicable. The variable rates, the fees, and the terms are subject to change. To find out if any rates, fees or terms have
changed, please write to: TCM Bank, N.A., P.O. Box 31537, Tampa, FL 33631. Each applicant must be at least 18 years of age.

Interest Rates and Interest Charges
Annual Percentage
The standard APR will be
, based on your creditworthiness.
Rate (APR) for
Purchases
This APR will vary with the market based on the Prime Rate.*

9.99% to 15.99%

APR for Balance
Transfers
APR for Cash
Advances
How to Avoid
Paying Interest on
Purchases
Minimum Interest
Charge
For Credit Card
Tips from the
Consumer
Financial
Protection Bureau
Fees
Annual Fee
Transaction Fees

The standard APR will be 9.99% to 15.99%, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.*
21.99%
This APR will vary with the market based on the Prime Rate.*
Your due date is at least 23 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month.
If you are charged interest, the charge will be no less than $1.00.
To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

None

•

Balance
Transfer

Either $5 or 3% of each balance transferred, whichever is greater.

•

Cash
Advance

Either $5 or 3% of each cash advance, whichever is greater.

Foreign
Transaction
Penalty Fees
•

1% of the U.S. dollar amount of each transaction made in a foreign currency, in U.S. dollars
outside the U.S., or (whether in a foreign currency or in U.S. dollars) with a foreign merchant.

•

Late
Payment

Up to $40.

•

Over-the
Credit Limit

None

•

Returned
Payment

Up to $40.

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new transactions).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights will be provided in your Cardholder
Agreement.
*We add a margin to the Prime Rate to determine variable APRs. We use the highest Prime Rate listed in The Wall Street Journal on
the last business day of the calendar month prior to your statement closing date (“Last Business Day”) and apply it beginning with the
first billing period following the Last Business Day. APRs shown here are based on a 3.25% Prime Rate. For each billing period, the

APR is determined by adding a margin to the Prime Rate. The margin for the APR for Purchases and Balance Transfers is 6.74% to
12.74%, based on your creditworthiness and for Cash Advances is 18.74%.
NOTICE: A consumer credit report may be requested in connection with this application and subsequent consumer reports may be
requested or utilized in connection with an update, renewal or extension of the credit for which application was made. Upon request, you
will be informed whether or not a consumer report was requested, and if such report was requested, informed of the name and address
of the consumer reporting agency that furnished the report. You agree that we will consider this an Application for a Visa® or Mastercard®
account. You agree that we reserve the right, based upon our evaluation of information furnished by you or others, not to open an account.
Important Information About Procedures for Opening a New Account
To help the government fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to
obtain, verify, and record information that identifies each person who opens an account.
What this means for you: When you open an account, we will ask for your name, address, date of birth, and other information that will
allow us to identify you. We may also ask to see your driver's license or other identifying documents.
State Laws Require the Following Notices: California Residents: A married applicant may apply for a separate account. After credit
approval, each applicant shall have the right to use this account to the extent of any limit set by the creditor and each applicant may be
liable for all amounts extended under this account to any joint applicant. Delaware Residents: Service charges not in excess of those
permitted by law will be charged on the outstanding balances from month to month. New York Residents: New York residents may contact
the New York state department of financial services by telephone or visit its website for free information on comparative credit card rates,
fees and grace periods. New York state department of financial services telephone: (800) 342-3736 and website: www.dfs.ny.gov. Ohio
Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all credit worthy customers, and
that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio civil rights commission
administers compliance with this law. Married Wisconsin Residents: Your signature confirms that this credit obligation is being incurred
in the interest of your marriage or family. No provision of any marital property agreement, unilateral statement under Section 766.59, or
court decree under Section 766.70, adversely affects the creditor’s interest unless, prior to the time the credit is granted, the creditor is
furnished a copy of the agreement, statement or decree or has actual knowledge of the adverse provision when the obligation to the
creditor is incurred. If the credit card for which you are applying is granted, you will notify TCM Bank if you have a spouse who needs to
review notification that credit has been extended to you.
Applicable Law: The above rates and fees are governed, as are your Cardholder Agreement and account, by the applicable laws and
regulations of the United States of America and to the extent not preempted by federal law, the laws and regulations of the State of
Florida.
Balance Transfer Disclosures: You agree to allow approximately 30 days for us to process your application and, if approved, transfer the
balance(s) to your TCM account. Please continue to make at least minimum payments on your other credit cards until they notify you
that the balances have been transferred. If the amounts you request to be transferred do not satisfy the outstanding balance(s) on the
designated accounts, you will continue to be responsible for those balances. The total amount of your balance transfer request cannot
exceed the amount of your credit line. You may not transfer balances from other accounts issued by TCM Bank. Transfer requests to cash
or to yourself cannot be processed. The payment and transfer of balances are contingent upon approval by the bank and receipt of
complete, legible balance transfer requests.
Rewards: In order to access reward points, your account must be open and in good standing.
World Mastercard® Travel Terms and Conditions
Accident Insurance. Coverage applies when the entire cost of the fare has been charged to the card. Your account must be in
good standing. Certain terms, conditions and exclusions apply. Please refer to your Mastercard Guide to Benefits for further details.
1Travel

Rewards Platinum Credit Card
Information on this disclosure was accurate as of April 30, 2020. This card will be issued and administered by TCM Bank, N.A. Before you
submit your application, please read through these Important Disclosures, which contain additional information about rates, fees, and
other costs, as applicable. The variable rates, the fees, and the terms are subject to change. To find out if any rates, fees or terms have
changed, please write to: TCM Bank, N.A., P.O. Box 31537, Tampa, FL 33631. Each applicant must be at least 18 years of age.

Interest Rates and Interest Charges
Annual Percentage
The standard APR will be
, based on your creditworthiness.
Rate (APR) for
Purchases
This APR will vary with the market based on the Prime Rate.*

9.99% to 19.99%

APR for Balance
Transfers
APR for Cash
Advances
How to Avoid
Paying Interest on
Purchases
Minimum Interest
Charge
For Credit Card
Tips from the
Consumer
Financial
Protection Bureau
Fees
Annual Fee
Transaction Fees

The standard APR will be 9.99% to 19.99%, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.*
21.99%
This APR will vary with the market based on the Prime Rate.*
Your due date is at least 23 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month.
If you are charged interest, the charge will be no less than $1.00.
To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

None

•

Balance
Transfer

Either $5 or 3% of each balance transferred, whichever is greater.

•

Cash
Advance

Either $5 or 3% of each cash advance, whichever is greater.

Foreign
Transaction
Penalty Fees
•

1% of the U.S. dollar amount of each transaction made in a foreign currency, in U.S. dollars
outside the U.S., or (whether in a foreign currency or in U.S. dollars) with a foreign merchant.

•

Late
Payment

Up to $40.

•

Over-the
Credit Limit

None

•

Returned
Payment

Up to $40.

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new transactions).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights will be provided in your Cardholder
Agreement.
*We add a margin to the Prime Rate to determine variable APRs. We use the highest Prime Rate listed in The Wall Street Journal on
the last business day of the calendar month prior to your statement closing date (“Last Business Day”) and apply it beginning with the
first billing period following the Last Business Day. APRs shown here are based on a 3.25% Prime Rate. For each billing period, the

APR is determined by adding a margin to the Prime Rate. The margin for the APR for Purchases and Balance Transfers is 6.74% to
16.74%, based on your creditworthiness and for Cash Advances is 18.74%.
NOTICE: A consumer credit report may be requested in connection with this application and subsequent consumer reports may be
requested or utilized in connection with an update, renewal or extension of the credit for which application was made. Upon request, you
will be informed whether or not a consumer report was requested, and if such report was requested, informed of the name and address
of the consumer reporting agency that furnished the report. You agree that we will consider this an Application for a Visa® or Mastercard®
account. You agree that we reserve the right, based upon our evaluation of information furnished by you or others, not to open an account.
Important Information About Procedures for Opening a New Account
To help the government fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to
obtain, verify, and record information that identifies each person who opens an account.
What this means for you: When you open an account, we will ask for your name, address, date of birth, and other information that will
allow us to identify you. We may also ask to see your driver's license or other identifying documents.
State Laws Require the Following Notices: California Residents: A married applicant may apply for a separate account. After credit
approval, each applicant shall have the right to use this account to the extent of any limit set by the creditor and each applicant may be
liable for all amounts extended under this account to any joint applicant. Delaware Residents: Service charges not in excess of those
permitted by law will be charged on the outstanding balances from month to month. New York Residents: New York residents may contact
the New York state department of financial services by telephone or visit its website for free information on comparative credit card rates,
fees and grace periods. New York state department of financial services telephone: (800) 342-3736 and website: www.dfs.ny.gov. Ohio
Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all credit worthy customers, and
that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio civil rights commission
administers compliance with this law. Married Wisconsin Residents: Your signature confirms that this credit obligation is being incurred
in the interest of your marriage or family. No provision of any marital property agreement, unilateral statement under Section 766.59, or
court decree under Section 766.70, adversely affects the creditor’s interest unless, prior to the time the credit is granted, the creditor is
furnished a copy of the agreement, statement or decree or has actual knowledge of the adverse provision when the obligation to the
creditor is incurred. If the credit card for which you are applying is granted, you will notify TCM Bank if you have a spouse who needs to
review notification that credit has been extended to you.
Applicable Law: The above rates and fees are governed, as are your Cardholder Agreement and account, by the applicable laws and
regulations of the United States of America and to the extent not preempted by federal law, the laws and regulations of the State of
Florida.
Balance Transfer Disclosures: You agree to allow approximately 30 days for us to process your application and, if approved, transfer the
balance(s) to your TCM account. Please continue to make at least minimum payments on your other credit cards until they notify you
that the balances have been transferred. If the amounts you request to be transferred do not satisfy the outstanding balance(s) on the
designated accounts, you will continue to be responsible for those balances. The total amount of your balance transfer request cannot
exceed the amount of your credit line. You may not transfer balances from other accounts issued by TCM Bank. Transfer requests to cash
or to yourself cannot be processed. The payment and transfer of balances are contingent upon approval by the bank and receipt of
complete, legible balance transfer requests.
Rewards: In order to access reward points, your account must be open and in good standing.

